 

Jason Wesoky
Admitted in Colorado and Maryland Email jwesoky@darlingmilligan.com

April 20, 2021

VIA Overnight Delivery and Electronic Filing
Scott S. Harris

Clerk of Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: Board of County Commissioners of Weld County, Colorado (Petitioner)
vy. Laurie Exby-Stolley (Respondent). Case No. 20-1357

Dear Mr. Harris:

I write to request an extension of time for Respondent Laurie Exby-Stolley to respond to
the petition for certiorari filed in this case. The opposition brief is currently due on April 26,
2021. We request a 45-day extension of time through and including June 10, 2021.

We request this extension because of the press of other business, the fact that I do not
regularly practice before this Court, and the need to obtain and coordinate with other attorneys to
consult on the preparation of the opposition. Additional time would permit any assisting counsel
to review the large record below — which includes substantial motions practice, a week-long trial
that occurred over four years ago, and two levels of review in the court of appeals — and research
the relevant legal issues.

Respondent has not previously sought an extension. Petitioner used nearly the entire 150-
day period to file its Petition. The Circuit Court issued its en banc opinions on October 28, 2020.
Thus, Petitioner had until March 27, 2021 to file the Petition. On December 16, 2020, Petitioner
moved for a stay in the Circuit Court pending the filing of its forthcoming Petition. The Petition
was filed on March 24, 2021 - 147 days after the Circuit Court’s opinions.

An extension in this matter will not prejudice Petitioner, which benefitted from nearly the
entire 150-day period to file its petition for certiorari.

1331 17th Street, Suite 800 (t) 303.623.9133 (f) 303.623.9129
Denver, Colorado 80202 www.darlingmilligan.com
April 20, 2021

Board of County Commissioners of Weld County, Colorado (Petitioner)
v. Laurie Exby-Stolley (Respondent). Case No. 20-1357

Page Two

Thank you for your consideration.

Sincerely,

   

ason Wesoky

Ce: All Counsel of Record (via e-mail only)

 
